<html>
<title> - ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New   
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 TIM RYAN, Ohio                     KEN CALVERT, California
 JOHN W. OLVER, Massachusetts       RODNEY ALEXANDER, Louisiana
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Taunja Berquam, Robert Sherman, Joseph Levin,
            James Windle, and Casey Pearce, Staff Assistants

                                ________

                                 PART 7
                          DEPARTMENT OF ENERGY
                             BUDGET HEARING

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations


      PART 7--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2010






                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New   
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 TIM RYAN, Ohio                     KEN CALVERT, California
 JOHN W. OLVER, Massachusetts       RODNEY ALEXANDER, Louisiana
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Taunja Berquam, Robert Sherman, Joseph Levin,
            James Windle, and Casey Pearce, Staff Assistants

                                ________

                                 PART 7
                          DEPARTMENT OF ENERGY
                             BUDGET HEARING


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 52-676                     WASHINGTON : 2009




                       COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania             JERRY LEWIS, California 
 NORMAN D. DICKS, Washington              C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia          HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                       FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana              JACK KINGSTON, Georgia
 NITA M. LOWEY, New York                  RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York                Jersey
 ROSA L. DeLAURO, Connecticut             TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia                 ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts             TOM LATHAM, Iowa
 ED PASTOR, Arizona                       ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina           JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                      KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island         MICHAEL K. SIMPSON, Idaho 
 MAURICE D. HINCHEY, New York             JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California        MARK STEVEN KIRK, Illinois
 SAM FARR, California                     ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois          DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan          JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                      RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania               KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey            JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia          STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas                   TOM COLE, Oklahoma
 BARBARA LEE, California
 ADAM SCHIFF, California
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2010

                                 -------
                                           Wednesday, June 3, 2009.

                          DEPARTMENT OF ENERGY

                                WITNESS

HON. STEVEN CHU, SECRETARY, U.S. DEPARTMENT OF ENERGY
    Mr. Pastor. The hearing will come to order.
    Good morning. We have before us today the Secretary of 
Energy, Dr. Steven Chu. He is here to present the 
administration's budget request for the Department of Energy.
    I am pleased that President Obama has clearly engaged the 
energy challenges facing this Nation and has made energy policy 
a top priority of his agenda. I view the President's decision 
to ask Secretary Chu to lead the Department of Energy also as a 
reflection of this commitment. Unfortunately, too often 
Secretary positions have been a consolation prize for 
appointees who preferred other positions, but we are very 
encouraged that we have before us today a Cabinet Secretary who 
is truly enthusiastic about embracing the DOE portfolio in this 
era of energy challenges.
    The Secretary of Energy features a broad portfolio of 
research and development efforts. Given the substantial short-, 
medium- and long-range energy challenges facing the Nation, we 
need a strong but balanced approach to energy R&D, which 
includes both fundamental energy research and development, as 
well as significant technology demonstration, deployment and 
commercialization efforts.
    Mr. Secretary, we look forward to hearing from you today as 
to how the fiscal year 2010 budget request will help address 
the energy and national security challenges we face, and the 
management plans to ensure efficient planning and execution. We 
look forward to cooperating with you on the challenges ahead of 
us. But I do want to remind you that the cooperation and 
respect are two-way streets. While we admire your background 
and expertise, that in no way means that we will rubber-stamp 
the DOE budget request for fiscal year 2010.
    There is also relevant background, knowledge, experience 
and expertise on this committee. I don't expect that we will 
always agree on everything regarding the DOE budget, but I 
sincerely hope we can work through those differences together 
in a cooperative and bipartisan manner.
    Mr. Secretary, I would also ask that you ensure that the 
hearing record, responses to the questions for the record and 
any supporting information requested by the subcommittee are 
cleared through the Department, your office, the Office of 
Management and Budget, and delivered in final form to the 
subcommittee no later than 4 weeks from the time you receive 
them.
    [The Opening Statement of Hon. Ed Pastor follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Pastor. With those opening remarks, I would like to 
yield to our Ranking Member Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Vice Chairman. Let me 
associate myself with your remarks as well as Mr. Edwards'. I 
look forward to working with you.
    Secretary Chu, good morning. Welcome to your first 
appearance before this committee. You bring to this 
administration a history of impressive accomplishments, and, 
may I add, a New Jersey connection through your previous 
employment at AT&T Bell Labs. How good it was in those old 
days.
    I should say to your credit that I am sensing an 
undercurrent of enthusiasm about the new leadership at the 
Department of Energy. I hope you can capitalize on this and it 
will lead to more focused and more accountable management 
across your Department.
    Your portfolio is daunting, with roughly 14,000 full-time 
employees, overseeing 93,000 contractors, not to mention the 
number of employees at the Federal and State level needed to 
meet the requirements of the Recovery Act, aka the stimulus, 
legislation, which, I may add, our subcommittee never reviewed, 
and which more than doubled the size of your budget with an 
infusion of about $38.7 billion.
    It will come as no surprise that there are clear 
philosophical differences emerging between the developing 
priorities of this administration and those long supported in a 
bipartisan way, I may add, by this committee and Congress. Let 
me outline a few.
    Basic and applied research is indeed the core of our 
Nation's ability to remain innovative and cutting edge, but we 
must maintain our focus on technology development and 
ultimately the commercialization of revolutionary technologies 
to keep our Nation safe and competitive. Unfortunately, this 
budget appears to subordinate commercial efforts and recasts 
our partnerships with private industry in disturbing ways.
    Last year, the volatility of gas prices jolted our country 
into an energy awakening, leaving the American public thirsting 
for cheaper, domestically generated and environmentally clean 
energy supplies. I believe to get there we must have diversity 
of energy supplies, period, and that nuclear power must be part 
of that mix. Nuclear power has wide acceptance these days among 
most of our fellow citizens, yet this budget makes me question 
whether nuclear power is a priority in this administration.
    Your request underfunds the Department's commitment to the 
nuclear industry included in the NP2010 program. It appears to 
back off our commitment to our international partners by 
stalling the development of the next-generation nuclear power 
plant. Both of these were at one time good-news stories for the 
Department, Mr. Secretary.
    This budget neglects our commitments to a tested and proven 
private industry, and, to my mind, to our international 
partners and allies, and puts our Nation at risk of ultimately 
ceding our leadership role in the clean energy revolution, a 
role that I personally strongly support.
    I will be frank with you, Mr. Secretary: The only point of 
real clarity and deliberate resolve I can glean from this 
request is the proposal to shutter Yucca Mountain, a decision 
that to this Member is an irresponsible about face with no 
clear way forward.
    You propose $5 million for a blue ribbon panel whose 
charter would include a review of alternative locations for a 
geological repository, and, I may add, covering old and 
familiar investigative territory. There is a sad and very 
costly irony with this proposal. Taxpayers have spent over $10 
billion, and countless scientific studies have been conducted 
over 26 years. The question of what we do with our nuclear 
waste had been answered quite honestly until this budget was 
submitted.
    The termination of Yucca Mountain appears to have had some 
confluence with a larger energy supply portfolio as well. Quite 
frankly, the budget reads more like an attempt to pit--and it 
is unfortunate--renewable and nuclear power against each other, 
a false choice, in my book.
    No one can dispute the potential benefit and growing need 
for renewable energy sources. Indeed, renewable sources will 
become a larger contributor, though they currently account for 
just 7 percent of the overall energy mix.
    As I have already mentioned, there is, I believe, a growing 
public consensus that nuclear power must be a major component 
of any energy portfolio that reduces our environmental 
footprint. Economically, the nuclear power boom will continue 
across the globe, with or without the United States. China, for 
example, has 125 nuclear plants in the pipeline. The United 
States has just 26 in the licensing process.
    Nuclear and renewable energy should be partners in the push 
for environmentally clean power and economic development, not 
combatants or rivals. Unfortunately, your Department's budget 
does not seem to support that approach, and I quite honestly 
feel there is a similar bias in this budget against oil and 
natural gas production.
    Finally, the weapons activities requests a mere $4 million 
above last year's level, significantly below the rate of 
inflation. I do not see how the President's vision, and I agree 
with his vision, of a world without nuclear weapons, not to 
mention NNSA's nuclear obligation to our Nation's security, can 
be met with this request.
    While the budget requests an increase for dismantlement, it 
cuts or flatlines funding for scientific and industrial 
expertise that we will need in the long run. Meanwhile, the 
Russians and Chinese are continuing their aggressive nuclear 
development programs, and the North Koreans have demonstrated a 
degree of sophistication that should worry all of us. As I told 
your Administrator 2 weeks ago, national security does not 
deserve a placeholder budget, yet this is precisely what we 
have before us, to my mind.
    Mr. Secretary, as I close, I want you to know that we know 
how this budget was drafted. The needs of your Department are 
much greater than the ceiling that OMB has forced on you. 
Action now rests with this committee. We will be rational and 
prudent and nonpartisan in our recommendations so as not to 
compromise any element of national security.
    So I look forward, as I am sure all members of the 
committee do, to your remarks, and to our discussion during 
this hearing.
    Again, thank you, Mr. Vice Chairman.
    Mr. Pastor. Thank you, Rodney.
    Mr. Pastor. I want to inform the subcommittee and the 
Secretary that we plan to call the hearing at 12 o'clock. So we 
will have as many questions as possible. I think that at 12 
o'clock we will adjourn.
    Mr. Secretary, good morning. Welcome. It is a great 
pleasure to have you with us.
    Secretary Chu. Thank you, Vice Chair Pastor, Ranking Member 
Frelinghuysen, members of the committee. I am pleased to be 
before you today to present President Obama's fiscal year 2010 
budget request for the Department of Energy. Before I start, I 
would like to say, yes, I did not prefer any other position, 
and I am looking forward to working with all of you, and we 
will be responsive to all the requests.
    The President's 2010 budget seeks to usher in a new era of 
responsibility, an era in which we invest to create new jobs 
and lift our economy out of recession, while laying a new 
foundation for long-term growth and prosperity.
    President Obama's fiscal year 2010 budget invests in clean 
and renewable sources of energy so we can reduce our dependence 
on oil, address the threat of a changing climate, and become 
the world leader in new, clean energy. The fiscal year 2010 
request for the Department of Energy is $26.4 billion, 
essentially flat compared to fiscal year 2009, and it 
complements the significant energy investments in the American 
Recovery and Reinvestment Act. The budget request emphasizes 
science, discovery and innovation to support the key missions 
of the Department.
    My written testimony includes an extensive breakdown of 
this budget, and I would like to use this time to briefly 
highlight a few of the top-line numbers in areas of particular 
importance.
    To promote nuclear security and the President's ambitious 
nonproliferation goals, the budget requests $9.9 billion for 
the National Nuclear Security Administration. To continue to 
accelerate legacy cleanup of our Nation's nuclear weapons 
production, the budget requests $5.8 billion for the Office of 
Environmental Management. To bolster the Department's 
commitment to scientific discovery, the budget requests $4.9 
billion for the Office of Science. And to foster a revolution 
in energy supply and demand while positioning the United States 
to lead on global climate change policy, the budget includes 
requests for a range of energy investments, including $882 
million for the Office of Fossil Energy, $845 million for the 
Office of Nuclear Energy, and $2.3 billion for the Office of 
Energy Efficiency and Renewable Energy.
    That clean-energy funding includes several notable 
strategic investments, even as this budget holds the line on 
spending overall. Solar power will receive $320 million, an 
increase of 82 percent. Wind energy is funded at $75 million, 
an increase of 36 percent. Funding for clean-vehicle programs 
is up 22 percent to $333 million. And funding for building 
technologies has increased by 69 percent to $238 million.
    Another significant increase is the Office of Electricity, 
Delivery and Energy Reliability, which will receive $208 
million, 50 percent more than fiscal year 2009, as it works to 
develop a new smart grid. This request also includes funding to 
implement the Loan Guarantee Program and Advanced Technology 
Vehicle Manufacturing Loan Program.
    With that brief overview, I want to turn to one of my 
highest priorities in the budget, as Secretary, amplifying the 
Office of Science's fundamental research with innovative 
approaches to solving the Nation's energy problems. 
Specifically, this budget request includes three initiatives 
designed to cover the spectrum of a basic to applied science to 
maximize our chances of energy breakthroughs.
    The fiscal year 2010 budget will launch eight Energy 
Innovation Hubs, while the Energy Frontier Research Centers and 
ARPA-E were launched last month. Let me explain briefly the 
differences among these initiatives and why I believe launching 
these hubs is so important.
    The EFRCs are small-scale collaborations, predominantly at 
universities, that focus on overcoming known hurdles in basic 
science that block energy breakthroughs, not on developing 
energy technologies themselves. ARPA-E is a highly 
entrepreneurial funding model that explores potentially 
revolutionary technologies that are too risky for industry to 
fund.
    The proposed Energy Innovation Hubs will take a very 
different approach. They will be multidisciplinary, highly 
collaborative teams, ideally working under one roof to solve 
priority technology challenges such as artificial 
photosynthesis, the creation of fuels from sunlight.
    A few years ago I changed the course of my scientific work 
to focus on solving our energy and climate challenges because 
of the urgency of these issues, and because I remain optimistic 
that science can offer better solutions than we can imagine 
today, but those solutions will only come if we harness the 
creativity and ingenuity and intellectual horsepower of our 
best scientists in the right way.
    I am convinced that launching Energy Innovation Hubs is a 
critical next step in this effort. Bringing together the best 
scientists from different disciplines and collaborative efforts 
is our best hope of achieving priority goals such as making 
solar energy cost-competitive with fossil fuels, or developing 
new building designs that dramatically use less energy, or 
developing an economical battery that will take your car 300 
miles without recharging.
    These are the breakthroughs we need, and the Energy 
Innovation Hubs will help us achieve them. I saw the power of 
truly collaborative science like this firsthand during my 9 
years at Bell Laboratories. I believe to solve the energy 
problem, the Department of Energy must strive to be the modern 
version of Bell Labs in energy research, and that is what these 
hubs will do. They will essentially be little Bell Lablets. 
These investments will pay for themselves many times over and 
enhance America's competitiveness on green energy jobs of 
tomorrow.
    A final initiative in the fiscal year 2010 budget is a 
comprehensive K-20+ science and engineering effort called RE-
ENERGYSE funded at $115 million. Through RE-ENERGYSE, the 
Department will partner with the National Science Foundation to 
educate thousands of students at all levels in the fields that 
contribute to our fundamental understanding of energy science 
and engineering systems.
    It is my firm belief that the short-term impact of the 
Recovery Act, combined with the long-term vision in President 
Obama's fiscal year 2010 budget, will lay the necessary 
groundwork for a clean economy. Both President Obama and I look 
forward to working with the 111th Congress to make this vision 
a reality.
    I appreciate this opportunity to appear before you. I ask 
that my full written statement be included for the record and 
will be happy to take questions at this time.
    Mr. Pastor. Without objection, your statement will be 
included for the record.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Pastor. You finished talking about the hubs by saying 
mini Bell Labs. At the time it was basically a private 
commercial venture, as I understand the Bell Labs. In your 
vision of the hubs, is it a private-only venture, is it a 
public-private venture? Could you expand a little bit more on 
how you see a hub looking like?
    I have a great interest in battery development. We have 
kind of lost that technology here as Korea and Japan and other 
countries, I think, are at the forefront, and there is a great 
need for developing greater storage capacity and being able to 
use it whenever we need it. So that is one of my interests. 
Battery research and development is something that I think is 
very important. How would you create and develop a hub that was 
in that particular area? How do you visualize that?
    Secretary Chu. Thank you for that question, Vice Chair. The 
idea of a hub or a Bell Lablet was not whether it was public or 
private, but the way Bell Laboratories actually managed the 
science.
    When I was at Bell Laboratories for 9 years, and actually 
for about 75 years, the very best scientists were the managers. 
That is somewhat unusual, because in many instances you might 
have been a good scientist at one time, seen better days, and 
then you become a manager. That was not true at Bell 
Laboratories. So the technical decisions of how things were 
made, how you are going to invest your money, were made by 
these contributing scientists.
    Now, what that did is it allowed people to make very clear, 
very timely decisions. Decisions on what to fund were not made 
by peer review, they were made by very intelligent people and 
back and forth between the people proposing and the people who 
had to bless the projects, and, I mean, really in an intimate 
sort of way.
    When I was a department head, a person would come to me and 
they would say, I have a great idea, here it is. So let's go to 
work. We would talk about it. I would say, what about this, 
what about that, I don't think it is going to work because of 
this, and we would answer back and forth.
    That is a process that allows you to go very much more 
quickly. When I read the history of the way Lincoln Labs were 
designed during World War II, the way Los Alamos, the way the 
metallurgical lab was done on the Manhattan Project, it was a 
similar thing. The very best scientists were actually in the 
fray discussing back and forth.
    The other thing is in these innovation hubs, they could 
span many different areas. For example, in batteries, it is a 
materials issue, there are measurement issues, there are 
structural issues, there many things that can cut across many 
disciplines. There could be some basic science issues. But in 
the end you want to deliver the goods. In the end, Lincoln Labs 
had to develop radar. So it spans this gambit in a seamless 
way, and then you have these top leaders making these 
decisions.
    If we did it the old-fashioned way, which is you give us a 
proposal, we decide whether it is good, you go away for 3 
years, you come back and tell us what you have done, and we 
will think about giving you another 3 years' worth of money, 
that actually delays things quite a bit. You can abandon things 
very quickly. Management says, here is a much better idea. Now 
we know enough in the first 3 months, this doesn't look like it 
is going to pan out, you can drop it. You can't drop it if you 
have got a proposal. You have to show some results, because 
golden rule number two of any scientist is get refunded.
    So if you can get on-the-ground, intimate, top manager 
looking at what is going on, I think you can go much faster. 
That is the basic idea.
    Mr. Pastor. Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Vice Chairman.
    Secretary, The New York Times reported, as you may have 
seen on the front page this morning, what would be, I think, 
regarded as a rather important security lapse. Could you tell 
us a little bit about what you have been able to find out? 
Obviously some of that basic information is out there. But 
certainly there appears to be, I guess, in 266 pages quite a 
lot of information that might be considered to be sensitive.
    Can you tell us and maybe give us a level of assurance or 
reassurance as to what is going to happen?
    Secretary Chu. Okay. I know what I know from reading that 
New York Times article, so let me start with that.
    My understanding is that someone made a mistake, probably 
at the Government Printing Office, and released sensitive 
information. That information includes where nuclear spent fuel 
is in civilian sites. But as far as the Department of Energy is 
concerned, it also includes some information on where some 
high-level uranium, for example, is in our sites, in particular 
in Oak Ridge and Y-12, and where on the sites it identified 
actually some tunnels, is my understanding, where this material 
is kept. So that is of great concern. We will be looking hard 
and making sure that physical security of those lab sites is 
sufficient to prevent people, terrorists, others from getting 
hold of that material.
    That is all I can say at the moment. It is of some concern, 
especially in Oak Ridge and Y-12.
    Mr. Frelinghuysen. You are dealing with it. That is 
reassuring.
    Secretary Chu. Well, I am here with you, but as soon as I 
go back, I will be dealing with it.
    Mr. Frelinghuysen. That is why you are leaving at noon.
    When we passed the stimulus bill, aka the Recovery Act, and 
I mentioned it in my opening remarks, the Department of Energy 
was a huge beneficiary of a lot of money. Of course, I have 
some concerns that a lot of that money was borrowed and has to 
be paid back.
    Can you tell us--and maybe you weren't there during this 
creative period--how you formulated the decision to spend those 
dollars, to what extent money has gone out the door, in other 
words, how much of it has been obligated, and who you have in a 
position of responsibility to make sure as that close to $39 
billion goes out the door, what person is in charge of 
oversight and accountability?
    Secretary Chu. Our goal is by Labor Day to obligate roughly 
50 percent of the $38.7 billion. If you look at the various 
things, I am thinking, for example, on weatherization, there is 
a concern all throughout the whole program that we want to make 
sure the money is spent well. So the weatherization, for 
example, $5 billion in the Department of Energy, is split in 
the following ways.
    Already, all the States have 10 percent of that money to 
stand up organizations to make sure as the States and the local 
areas begin to weatherize, that there is a trained core of 
people that can do this in a proper way. After that we will 
release another 40 percent and see how they are doing.
    So we won't give the remaining money. We will give 40 
percent and say, okay, let's see what you have done. Is this 
money being well spent? It is one thing to stimulate jobs, but 
overall we have to not only stimulate jobs, but it has to 
actually save energy, because it is the saving of the energy 
that will actually put money back into their pockets that will 
begin to stimulate the economy in a second way. So it is very 
important that you actually say it in the energy bills. So it 
is going to be released in tranches.
    On the energy loan parts, the loan guarantee parts, we have 
announced one loan so far. From when I took over the 
Department, it took us about 58 days. That is a little bit 
ahead of the schedule I was originally told, which was a year 
and a half. We are hopeful in the next several weeks we will be 
announcing another set of loans.
    Always there are little glitches in things. There are 
negotiations between companies, things of that nature. These 
are announcements of conditional loans in the sense we will 
obligate. If those companies do their part in getting the 
additional 20 percent of financing, it is good. I just want to 
make it clear.
    There are a number of other things. In fact, at the very 
beginning, I think the first week of my time at the Department 
of Energy, I appointed a person who reports directly to me that 
oversees all of the economic stimulus material. He has meetings 
now, I believe, on a daily basis with all of the various 
people, and we chat.
    Mr. Frelinghuysen. You and I have chatted about that.
    Secretary Chu. Right.
    Mr. Frelinghuysen. You are going to make sure that that 
person is cracking the whip in terms of oversight as this money 
goes out the door for weatherization to the various States.
    Secretary Chu. We talk probably almost every day. When I am 
in town we talk, and otherwise it is e-mails. And that person, 
although he is a very kind person, he does crack the whip. So, 
yes.
    Mr. Frelinghuysen. The money is going to weatherization 
assistance, which is a huge boost from, what, $220 million last 
year to over $5 billion. You are confident that through the 
mechanisms you have set up, that the States are prepared to 
hire people that are competent to make sure this money gets out 
the door?
    Secretary Chu. Well, let's just say--I don't know about 
confident. Let's just say we are trying to do a lot of 
preventive things, as much as possible, to make sure that it 
has gone out the door in a sensible way, that you try to 
minimize fraud. I will confess this is an area of some 
vulnerability, and because it is, and because we know it, we 
are looking as closely as we can at what States' programs are 
doing.
    Mr. Frelinghuysen. In many cases, the programs that exist 
in some of our States, and individual legislators can put the 
oar in the water here, the amount of money they are getting is 
a huge amount compared to whatever they have traditionally 
gotten from the Department of Energy. So there is a potential 
there for trouble if we don't set pretty high standards to 
begin with.
    Secretary Chu. I agree with you absolutely. You mentioned 
also the stimulus money, the $38.7 billion, our budget is $26 
billion a year, and the 38--most of that will be obligated; it 
will essentially be obligated in 2 years. Even that, and the 
strains on our Department are such that we can't do things as 
business as usual.
    For example, we are now scouring the country looking at the 
best universities, letters being sent out to the presidents, to 
the deans, to the heads of professional societies, give us some 
of your best people to help us review these problems. We can't 
rely on the staff of the Department of Energy. Then we will be 
bringing them in for a week in Washington this summer to get 
the very best experts to help us review.
    Mr. Frelinghuysen. You are going to bring them to 
Washington to be inculcated on how to get----
    Secretary Chu. This is true government service.
    Mr. Frelinghuysen. It is unbelievable. We know you are the 
``grantsman in chief'' now. You have got a huge portfolio. We 
wish you luck in that regard. We will be obviously closely 
monitoring what you are doing.
    Thank you, Mr. Vice Chairman.
    Mr. Pastor. You may want them to go to Phoenix in August. 
That will show real dedication, and there is great rates.
    Chet.
    Mr. Edwards. Thank you, Mr. Vice Chairman.
    Secretary Chu, congratulations on your appointment, and 
thank you for your leadership in the energy field for many 
years. We look forward to working with you.
    I salute the administration for saying we need a balanced, 
multipronged approach towards changing our dependency upon 
foreign energy sources. ``Drill, baby, drill'' is a good 
slogan, but I think we all understand it requires more than 
that. It is going to be conservation, alternative energy 
research and reliable dependence upon some traditional sources 
of energy. I want to ask you about that particular point.
    Nuclear power provides, am I correct, about 20 percent of 
our present electricity needs in the United States? Is that 
approximately correct?
    Secretary Chu. That is approximately correct.
    Mr. Edwards. So with our population and economy growing, we 
will have to have new nuclear power plants just to maintain 20 
percent of our electricity coming from nuclear plants; is that 
correct?
    Secretary Chu. That is correct.
    Mr. Edwards. What is the administration's position on the 
role nuclear power should play in providing energy for our 
homes and businesses?
    Secretary Chu. I would actually like to see that fraction 
increase.
    Mr. Edwards. Okay. Will our policies in the administration 
encourage that?
    Secretary Chu. Yes, and some actions in Congress. I think 
nuclear power does provide base load energy. It is clean. As we 
restart the nuclear industry, I would like the United States to 
recapture the technological lead.
    There is some good news. Westinghouse, which even though it 
is partly owned by the Japanese, the designers of the AP1000 
are in the United States, and it is getting a lot of contracts 
worldwide.
    Mr. Edwards. Okay. Let me ask about another source of 
energy. In your bio it says you are charged with helping 
implement President Obama's ambitious agenda to invest in 
alternative and renewable energy, end our addiction to foreign 
oil, address global climate change and create millions of new 
jobs. Let me talk about ending our addiction to foreign oil.
    Presently, as I understand it, natural gas and oil provide 
65 percent of America's energy, and independent natural gas and 
oil producers develop 90 percent of U.S. wells, produce 82 
percent of U.S. natural gas, and produce 68 percent of U.S. 
oil. I know you are not Secretary of Treasury, and you are not 
overseeing tax policy, but you are a key voice, if not the key 
voice, in the administration on energy issues.
    Can you explain to me how the administration thinks it will 
reduce our dependence upon either foreign oil or even natural 
gas, and how it will not discourage drilling of natural gas 
wells in the country, if we were to add billions of tax dollars 
for intangible drilling costs, percentage depletion issues and 
other tax issues that were included in the President's budget?
    It seems to me counterproductive, particularly with natural 
gas, since that price is set on a regional or national basis 
based on supply and demand, not on a world basis, to propose 
taxes that would discourage independent gas producers that 
generally take every dollar in profit they make and put back 
into production here in the U.S. It seems awfully 
counterproductive for encouraging less dependence upon foreign 
sources of energy to be adding a massive new tax onto 
independent producers of natural gas as well as independent 
producers of oil in the United States.
    Any thoughts on that as Secretary of Energy?
    Secretary Chu. Yes. Actually, I would go with the first 
sentence when you started that, which is that is a question for 
the Secretary of the Treasury. But let me add to what things 
are under my control.
    As I said before with Ranking Member Frelinghuysen, the 
best way we can end our dependence on foreign oil are two 
things. Part of that comprehensive plan would be increasing the 
domestic supplies. But the other part is conservation, that we 
use especially less in our personal vehicles, and a diversity 
of supply.
    So diversity of supply means to me several things. It means 
that we develop as quickly as possible fourth-generation 
biofuels based on cellulose that make environmental sense, that 
would be cost competitive with natural oil.
    The appealing part about that is that it uses a lot of 
agricultural waste that is now put into landfill or we simply 
burn up and pollutes the air. So this is wheat, straw; corn is 
plowed into the ground, but we can extract half of it; what 
rice we produce, the lumber waste materials, urban waste. So 
that is one thing.
    The other thing is electrification of personal vehicles. If 
we can get that, we can offload a lot of our gasoline supplies 
with plug-in hybrids. So we want to develop those aggressively.
    Mr. Edwards. I salute the administration for those efforts. 
I will finish by saying I respect the fact that you aren't the 
Secretary of the Treasury, you are not Director of OMB, but you 
are Secretary of Energy, and I would like someone in the 
administration to explain to me how it encourages natural gas 
production in the United States, a relatively clean fuel, by 
taxing it to the tune of billions of dollars of additional 
taxes. I hope your voice will be heard.
    I hope the Secretary of Treasury doesn't come up with tax 
policies without input from the Secretary of Energy when it 
comes to his tax proposals impacting energy production and 
supply in this country.
    Thank you.
    Mr. Pastor. Zack.
    Mr. Wamp. Thank you, Mr. Vice Chairman.
    Mr. Secretary, I, too, applaud you for your intellect, for 
your willingness to serve, encourage you greatly on renewables 
and energy conservation, having helped lead those efforts 
through the years here. Nuclear, though, a big question, both 
nuclear energy and nuclear weapons. That is kind of my two-
pronged approach here this morning.
    Talk to me, please, about the commitment to closing the 
fuel cycle. Since we are moving away from Yucca, what we are 
doing in your budget request to advance the research to 
demonstrate that that can be done, which we believe at the Oak 
Ridge National Laboratory can be done pretty quickly? I think 
that has great potential.
    Then you talk about your desire to increase the 20 percent. 
Where is the loan guarantee commitment, both in bills we have 
already seen and in the upcoming bill, to show that the 
administration wants to see more than a handful of reactors 
built in order to increase that 20 percent electricity from 
nuclear?
    Secretary Chu. Okay. Let me take them in reverse order. The 
loan guarantee, there are discussions ongoing, active 
discussions, with four of the applicants. We have $18.5 
billion. We are proceeding as fast as possible. Hopefully 
sometime this summer we can make announcements. That $18.5 
billion can cover three or four and no more. There are other 
applicants, so in order to proceed ahead with more, we would 
essentially need more money for authorizing and appropriating.
    Mr. Wamp. You will be pursuing that in future years, future 
bills, future options?
    Secretary Chu. Yes, I think that makes sense.
    There are a few other things we are doing. This is the 
final year, it was mentioned before, NP2010. There were two 
reactors in NP2010, the AP1000 and a new GE reactor. We are 
going to be completing helping Westinghouse finalize, and 
hopefully it is an NRC decision, but we will be hoping that NRC 
will be looking favorably on licensing that reactor in the U.S.
    The GE reactor is a slightly different matter. A lot of 
orders for that reactor have been shifted. So while it is in 
this state, we didn't think it was prudent to be going ahead. 
So we are on hold on that one. If they want to go forward, we 
will try to help them.
    In terms of closing the fuel cycle, that is something which 
I personally think has great opportunity. If nuclear energy is 
going to be a viable form of carbon-free energy not only in 
this century, but next century, we have to look towards 
recycling of fuel. We have to be looking towards developing a 
new generation of reactors, in particular a generation of 
reactors that have a high-energy neutron flux that can burn 
down the long-lived actinides components, that we could 
actually harness much more of the energy in the nuclear fuel. 
We are using less than 10 percent today, and that is it. So I 
think that the possibility is very real.
    Now, having said that, I would have to say that the current 
technology that is being used today, for example, in France and 
in Japan, creates a stream of plutonium, and that is not good. 
Plutonium or a plutonium oxide getting into the wrong hands 
could be bomb material.
    So what we want to do, there are three prongs. We want to 
spend research in developing a proliferation-resistant method 
of recycling the fuel. If we get that method, and it looks 
economically viable, then it is time to pilot. Not before. So 
that is one thing. So we are going to be researching 
proliferation-resistant type of ways of recycling fuel.
    As I said before, we are investing in advanced reactors and 
advanced reactor designs that go beyond things like the 
Westinghouse reactor. So that is something that we feel very 
positive about.
    Now, the good news is that for the next couple of decades, 
we have enough reactor fuel, so we need not rush in to starting 
to pilot something prematurely. There was a National Academy of 
Sciences report on this issue, in fact, the whole GNP issue. It 
came out very positively on everything except piloting a fuel-
recycling plant at this time. Certainly the international 
cooperation in trying to make sure that the resurgence of 
civilian nuclear power in the world is done correctly and the 
international cooperation, all these things came up very 
positively. But with that one thing, they said, wait, let's do 
some more work on it.
    Mr. Wamp. Let's remember that the first 100 reactors were 
built in 20 years in this country. We know a whole lot more 
about it now than we did then. And we can build another 100 
reactors, as Senator Alexander said last week, a whole lot 
easier than we built the first 10 reactors. There has never 
been a death associated with nuclear energy in this country. So 
I think time is of the essence.
    I hope that the research you are talking about doesn't slow 
the process of bringing new electricity on line if we are going 
to be competitive. The renewable frontier is great, but we are 
not where we need to be right now, and we all know that. So I 
just want to encourage you to push.
    A second thing on this New York Times story, the DBT, 
design basis threat, moved since September 11. NNSA is part of 
DOE, but it is separate, and I frankly think it has worked 
pretty well. So you are going to have to, maybe following this 
story, I hope, move a little bit into that national security 
piece of your responsibility to get to the bottom of this.
    I hope you come to Oak Ridge. I hope you will go to 9212, 
which is a building there at Y-12 that you won't like. You will 
say this is not adequate. It would be replaced by the uranium-
processing facility which is on the drawing board, so to speak, 
but the budget request is not sufficient to maintain the level 
of talent that we have designing the UPF. But this may cause 
you to take a harder look at this, even this story. So I am 
always looking for the silver lining. The DBT, the design basis 
threat, could even be modified just on the basis of this story, 
on what kind of security precautions you need to protect our 
stockpiled highly enriched uranium.
    So I would encourage you to come and take a second look. I 
understand the administration has underfunded the UPF design. 
We have made a pretty strong case with this committee that it 
needs to be funded. When 15 Members show up today, though, it 
speaks volumes about their interest in what you are doing and 
the energy piece of this, and I know that you definitely have 
got a signature issue on the energy side, but the weapons side 
here is going to need your attention, obviously, from this 
story and more.
    Finally, on pensions, I read where you are looking at 
trying to supplement some of the loss of pension revenue, I 
think, for the people that work for the Department of Energy, 
and I want to ask on behalf of the whole slew of retirees that 
are out there that haven't had any update in their pension 
benefits in a long, long time, will you consider looking at 
that while you are looking at the pension funds of existing 
workers?
    Secretary Chu. Yes. I think it is actually part and parcel 
of the whole package. It is the current workers and the former 
workers, with regard to the pension exposures when the market 
crashed.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Berry.
    Mr. Berry. Thank you for being here this morning, Mr. 
Secretary, and thank you for being willing to take on this job. 
Looking at your resume, you enjoy challenges. You have sure got 
you one now.
    Where I grew up, they had a saying, don't feed the bulldog, 
and we are trying to figure out what to feed the bulldog here, 
because if we don't have the energy to grow this economy, 
regardless of what form it takes, it won't make any difference, 
we can't grow it. You know that. You don't need me to tell you 
about it. But we are all very concerned about it.
    I have one question. The Energy Innovation Hubs, have they 
already been selected?
    Secretary Chu. No.
    Mr. Berry. How will that be done?
    Secretary Chu. Well, we will be putting out a call for 
proposals. There are topics that have been announced, and we 
would then review those with both--I hope to assemble, again 
going back to what I said before, some of the very best people 
that we have to look at those proposals.
    A critical part of that would be the leadership of those 
hubs, because this is a critical part of that. I don't just 
want people to cluster together in some virtual thing. It has 
to be a really coherent thing, ideally under one roof.
    Mr. Berry. I believe it was in 2007, but the Department of 
Energy designated three centers of research for biomass, one at 
Oak Ridge, one at the University of Wisconsin, and one at the 
University of California at Berkeley.
    Can you tell me anything? Or you might want to take it for 
the record. What has happened to that?
    Secretary Chu. That is actually a precursor to these other 
innovation hubs. Those three effective hubs have done very 
well. There are many, many patents that have come out of all of 
those. They are largely highly coordinated research efforts 
that do go across the gamut between solving some basic research 
needs, but really focused on delivering some goods, of actually 
developing technologies that will be picked up by the private 
sector. So, in fact, those energy biology centers were the 
precursor for expanding into other areas, further hubs.
    Mr. Berry. Okay. That is focused on biomass?
    Secretary Chu. Those are focused on bioenergy and biomass, 
that is correct.
    Mr. Berry. I would share some of the concern that has been 
mentioned. I know you have got I guess it is $18.5 billion in 
the Loan Guarantee Program at present. You have already said I 
think you intend to ask for more if it is needed. It seems to 
me that is just not big enough to do the job, and we need to be 
moving forward pretty quickly on it. I hope you all would look 
at that carefully.
    I suffer from concern. I live way out in the country, and I 
don't want to wake up some night and not be able to turn the 
lights on, and we will be the first ones cut off when we don't 
have enough. There are those that don't think that would be a 
bad deal.
    And I would also share with you my concern that we are 
going to go back and reinvent the wheel with Yucca Mountain. We 
got a mighty expensive dinosaur out there if we don't figure it 
out. I share your interest in salvaging this used fuel and 
making it so we can use it again, but it seems an awful shame 
to me to have spent that money, and then we still haven't got 
anything, and we are kind of going back and starting over.
    Mr. Berry. I know the folks in Nevada do not like it, but 
sometimes things happen in Arkansas I do not like either. But 
thank you.
    Every time one of you guys appears before this committee, 
it is well established that I am not a nuclear physicist, and 
my colleagues enjoy that fact a great deal.
    Thank you for being here, Mr. Secretary.
    Secretary Chu. You are welcome.
    Mr. Pastor. Mike.
    Mr. Simpson. Thank you, Mr. Vice Chairman.
    I was just thrilled to learn that Mr. Berry's district has 
electricity now.
    Thank you, Mr. Secretary, for being here today.
    I knew I should not have said that.
    Thank you for being here today and congratulations on your 
appointment. We look forward to working with you on these 
challenging times in the future.
    I have whole pages of things that I would like to go 
through, but let me talk first about something, Yucca Mountain. 
I am not going to criticize your decision on that. It is what 
it is. And I have learned, in politics, it does not do a lot of 
good to howl at the moon very long. But let's talk about where 
we are going forward on that. You said apparently that Yucca 
Mountain is not a viable option. Is that in the Department and 
the administration's view, is Yucca Mountain, as a permanent 
geological repository, dead?
    Secretary Chu. Yes.
    Mr. Simpson. You are going to establish a Blue Ribbon 
panel. How will that be different from the Nuclear Waste Policy 
Technical Review Committee or whatever they call it now?
    Secretary Chu. Yeah, thank you for that question.
    We do know a lot more than we did 25, 30 years ago, when 
this first started. In fact, what I just said about the 
potential for recycling would mean that it would make sense--I 
do not want to prejudge what this Blue Ribbon panel is going to 
do. But given where we are, given the very good hope that we 
could get a different set of reactors, Generation IV reactors 
that could burn down the actinides; given the hope that--
remember, before that, the national policy was once-through 
fuel use.
    So if there is a real technological and economic 
possibility that we could be recycling the fuel, that you would 
want to then have storage for a couple hundred years, because 
this would be storage that would say, as you get better and 
better at fuel recycling, you withdraw it, you recycle it, and 
you continue to use those assets.
    Then there will become a time when you do not want to do it 
anymore; it is not going to be viable. Once the fuel is 
vitrified, as an example, or largely depleted, there is no call 
for it. And so then the requirements of storage would be, you 
do not need to have access to it any more.
    So just given those two things would suggest that you could 
step back, take another look at it, and have classes of 
storage. It probably might have to be distributed for a lot of 
reasons, including transportation. So it could not be just one 
site.
    So these are some of the things that I would hope the Blue 
Ribbon panel would look at, again stepping back and then coming 
back to us, coming back to Congress and saying, you might need 
a revision of the Nuclear Waste Act, and based on what we know 
today relative to what we knew 25 years ago.
    Mr. Simpson. Will your instructions to this Blue Ribbon 
panel be to also look at the alternatives of a permanent 
geological repository?
    Secretary Chu. Yes. It is going to be pretty wide open. How 
do you go beyond, you know, as you said, it is what it is, so 
how do you go beyond this situation and give us a better future 
based on what we know today and also based on what we think 
will be happening in the next 50 years?
    Mr. Simpson. If a permanent geological repository will be 
part of what they look at, the most studied piece of earth in 
the world is Yucca Mountain. Will they have the option to make 
a recommendation on Yucca Mountain, or will that be off the 
table as far as this panel is concerned?
    Secretary Chu. I think Yucca Mountain as a long-term 
repository is definitely off the table. I should say that based 
on what we know today, there are geological sites, if you do 
not want to have access to the material anymore, going hundreds 
of years in the future, there are actually better geological 
sites.
    Mr. Simpson. So this potentially opens up all of the sites 
that were looked at before, before Yucca Mountain was chosen, 
as well as many others as potential permanent repositories for 
nuclear waste.
    Secretary Chu. Right. But the requirement, you know, again, 
I do not want to prejudge what the Blue Ribbon panel finds, but 
if they say there is going to be a certain class of material 
that you do not want to have access to, it is okay to put it in 
there, seal it up, close the door, then other sites become 
actually more desirable, sites that have been there for 
hundreds of millions of years, that we know it is going 
nowhere, that changes in rainfall patterns and things like that 
have not, won't disturb these things. So it becomes a different 
question.
    Mr. Simpson. It becomes a different question, but it is 
interesting that we would say this one piece of earth we are 
not going to look at; everything else we will look at, when 
this one piece of earth is the most studied piece of earth in 
the world. You might as well take Disneyland off the potential 
sites, also. There are certain places we could take off.
    And I find it amazing that we would say, we are not going 
to--the committee, Blue Ribbon committee is going to look at 
geological repositories, but the one geological repository we 
are not going to look at that has had 55 National Science 
Academy studies done on it, as well as multiple other things, 
the one we are not going to look at is Yucca Mountain, which 
indicates to me that that is more politics than it is science, 
quite frankly, which disappoints me. But it is, as I said, what 
it is.
    And probably before we find a permanent repository, there 
will be a new administration, and we will find something else 
that we decide to do. And that has been one of my concerns with 
the Department of Energy, as well as other areas of government, 
all along is that we keep changing directions all, you know, 
every time we have a new Secretary, a new President, a new NE 
Secretary or whatever, they all have a different vision.
    We all come to our positions with our histories and our 
prejudices and our biases and everything else. You mention that 
you would like to see an increase in the percentage of nuclear 
power. You come from a science background. Much of your budget, 
you said in your testimony, your emphasis is science, 
discovery, and innovation. The one word you seem to have left 
out to me is deployment, because ultimately, all of this only 
means anything if it is used by the private sector in producing 
electricity or other things that we are doing.
    What is your vision of how we get these things? You talked 
about the mini-Bell Labs and all that type of thing. We have to 
get this stuff out into the field to be working. When I look at 
your NE budget, the NP 2010 enacted in 2009, $177 million 
requested, this year $20 million. Gen IV research and 
development, no mention of NGNP in your budget. The NE 
portfolio backs out $70 million for two of your energy hubs. So 
the NE budget is actually a decrease of $100 million. That does 
not really even take into account the fact that much of or some 
of the budget is used to address the pension shortfalls. So we 
are going to have a substantial decrease in actually getting 
and deploying the technologies out into the field. What is your 
reaction to that?
    Secretary Chu. Well, as I said before, the NP 2010 budget 
is worked out; it is essentially being finished by the AP1000.
    Okay, so that is why you see the budget decrease that you 
see. The work is going to be done on NP 2010, and the 
authorization is for NP 2010 anyway. I agree with you, 
deployment is the key. Picking up in the private sector is 
absolutely the key. And so we are changing the way things are 
being done in the Department of Energy.
    There has been, in the past, and I think all the members of 
this committee know about this, is that there is an Office of 
Science that does superb support of basic science. And then we 
have technologies. And there is a big gap between those. And 
there is a gap between some of the things that the technologies 
support and actually getting out into the private sector.
    So many of the programs we are doing are designed to bridge 
that gap, number one. The ARPA-E is designed primarily to 
sponsor that research that will be before industry, before 
venture capital picks it up. So it is a very short-term, 3-
year, maybe renewable to 5 years; after that, it is zeroed out. 
That project will have to find private-sector support. So it is 
the seed money for pre-venture capital, pre-commercial.
    Many of the other things, the two under secretaries, one 
for the technologies and the other for the science, have agreed 
before they were signed on that they would work very, very 
closely together; they are going to be helping and reviewing 
everybody's programs. They were part of building up the team 
under them in a very intimate way. Again, we are trying to 
break the stovepiping, and knowing full well that, at the end 
of the day, you want to use our intellectual horsepower to get 
something out into the private sector. That is the goal. Just 
as it was, as I said before, with Los Alamos and Lincoln Lab. 
You are actually trying to get somebody to produce something, 
deliver the goods.
    Mr. Simpson. Sure.
    Secretary Chu. So I think if I had looked at the Department 
of Energy's history before, there were these so-called valleys 
of death. There was not just one, there were a few.
    Mr. Simpson. They still exist.
    Secretary Chu. They do. And so you will have to come and--
--
    Mr. Simpson. You have created some of them.
    Secretary Chu. I----
    Mr. Simpson. NGNP was----
    Mr. Pastor. Mike, I am going to have to, we have still 
other members, so I will give you a minute, Mr. Secretary, to 
finish your statement so I can go to Mr. Israel.
    Secretary Chu. I think there is no agreement in 
philosophically where we both want to go. Let me just say that. 
And I would be glad to talk to you about some details and find 
out your opinions if you think we are doing something 
incorrectly. But I think the end goal is exactly the same.
    Mr. Simpson. I will follow this up on the second round.
    Mr. Pastor. Mr. Israel.
    Mr. Israel. Thank you, Mr. Vice Chairman.
    Welcome, Mr. Secretary. I have enjoyed our several 
conversations and do look forward to work with you in a 
partnership.
    I do want to, in the spirit of friendship, share with you a 
very deep concern I have with the budget, and that is on 
hydrogen fuel cells: $140 million cut from last year; 66 
percent reduction in EERE for hydrogen fuel cells.
    I remember seeing the President visit the Jay Leno Show 
when Jay Leno had a show late in the evening and talked about 
his affinity for hydrogen fuel cells. And I am concerned that 
the budget numbers do not match that affinity at all.
    I recently visited a GM facility in Honeoye Falls in 
Upstate New York with one of our colleagues, Congressman Eric 
Massa. They are doing extraordinary work on research and 
development of hydrogen fuel cells. I drove in a car that they 
had deployed.
    I understand in your testimony to the Senate, you said that 
this is a very tough call and explained that you need a 
refueling capability, and we do not have that right now. It 
seems to me that, as a matter of logic, that this is a chicken-
and-egg issue, that you are not going to have a fueling 
capability if you do not have hydrogen fuel cells. And you are 
not going to have hydrogen fuel cells if you are cutting the 
budget by $140 million. Your Hydrogen Technical and Fuel Cell 
Advisory Committee, I understand, did not recommend these cuts.
    And so I would like to give you an opportunity to explain 
why those cuts were made and appeal to you to work with the 
members of this subcommittee, Congressman Massa, and other 
interested parties to see if we can develop a different 
approach that reaffirms this Nation's commitment to next 
generation hydrogen fuel cell research, development, and 
deployment.
    Secretary Chu. Okay. Thank you.
    So let me first start saying that it is not only the 
refueling stations that are an issue. I think the fuel cells 
themselves have come a long way. They have made great progress. 
There are still some issues about the longevity and cost of the 
hydrogen fuel cells. If I were to plot the best course for 
developing this so that there would be significant deployment, 
I would probably go with hydrogen fuel cells; there is a 
centralized place where you--also the source of hydrogen, 
currently the predominant way is to reform natural gas.
    It is not a matter of an infrastructure being built; it is 
an infrastructure that has to be as extensive as the 
infrastructure for gasoline and diesel. And so that is hundreds 
of billions of dollars of--you know, so that does not come 
overnight. So one could imagine starting this in a warehouse 
for forklifts, especially indoor forklifts, where because there 
are air pollution problems, and so hydrogen fuel cells emit 
water. It makes perfect sense. They are centrally located. You 
can are have a reforming station in one place and refuel.
    There is also an energy storage problem. Right now the best 
storage we currently have today is high pressure storage, 
5,000, 10,000 pounds per square inch. Pretty dangerous stuff. 
Very high pressure tank, and not that much range unless it is a 
huge tank. So we have a storage problem. We have an 
infrastructure problem. You start by looking at local areas 
like forklifts or Postal Service trucks or things like that to 
get it going to prove the technology.
    In the meantime, we will be investing money in energy 
storage of hydrogen so that we can for example develop better 
methods that the hydrogen can be absorbed on surfaces. That 
would allow the energy source to go up considerably. We will be 
designing better methods, looking at other types of things. 
Hydrogen fuel cells, stationary hydrogen fuel cell also, since 
they do not have, you know, these four concurrent technologies, 
the storage, the infrastructure, the generation of hydrogen and 
the fuel cells and the cost of the fuel cells themselves. And 
once you work on a stationary one, the lighter weighting does 
not matter, the temperature does not matter as much. So I think 
we will be continuing on stationary storage. The Office of 
Science will be continuing to invest in solving these other 
problems. And we will be looking at trying to develop it in a 
graduated way so that you prove the technology in a more local 
setting, where the infrastructure does make sense. But we will 
be glad to work with you, this committee, and the Senate 
committee on this issue.
    Mr. Israel. Well, I appreciate that. And I intend to work 
very closely with you. I recognize that there are all sorts of 
problems with the technology. But I do not believe we are going 
to solve those problems by slashing budgets $140 million. Not 
to be too pedestrian, but there were plenty of people who said 
there were all sorts of reasons not to do the Mercury project, 
not to do the Apollo program, all sorts of technical hurdles. 
We did not take no for an answer. We accelerated budgets. We 
made those investments. And we solved those problems.
    Again, in the spirit of friendship and cooperation, I look 
forward to working very closely with you on what is an absolute 
priority for me and I know other members of the this committee 
and the colleagues we have in the House.
    Thank you, Mr. Vice Chair.
    Mr. Pastor. Mr. Rehberg.
    Mr. Rehberg. Thank you, Mr. Vice Chair.
    And again, welcome, and congratulations. It is always hard 
for me to zero in, because of any congressional district, I 
literally have any form that you can think of other than 
nuclear. Wind, solar, geothermal, biomass, oil, gas, coal.
    But it is interesting to hear you say that about Yucca 
Mountain, because where I want to go is an area I want to thank 
you for being open-minded, and that is Future Gen. Could you 
tell me a little bit about sequestration? Where have the 
changes occurred within the Department of Energy between, you 
know, Mr. Bodman and yourself and the thought process that goes 
into revisiting the issue? Because I sat in this committee last 
year and was told by your predecessor, Future Gen is dead, 
dead, dead, dead. It will never be seen again, and we moved off 
into the regional partnerships, the seven projects.
    But could you talk a little bit about sequestration, its 
opportunities, the technology available? Is Mattoon still a 
viable site? Is it going to be the place that the demonstration 
plant is going to be? And a little bit about the partners. I 
spent a lot of time dealing with those governments from India, 
or companies within India, China, South Korea, to try and get 
them to be a partner.
    And when the rug was pulled out from under us, it not only 
is embarrassing; it is very costly. It is time-consuming, and 
it sets the project back a ways. So if you could just talk a 
little bit about the thought process within Department of 
Energy on sequestration.
    Secretary Chu. Okay, so the thought process is pretty 
linear. What I was thinking is that roughly 50 percent of our 
electricity is generated by coal. The United States has the 
biggest coal reserves in the world. China and India and Russia 
and Australia have enormous coal reserves.
    No matter what happens in the United States, India and 
China will not, and Australia probably, would not turn their 
back on coal, and actually neither will Russia. I have been 
talking with some Russian representatives. So it is very 
important that we develop the technology that captures and also 
that safely sequesters carbon from coal plants because of this 
huge asset. So we need to develop these technologies.
    These technologies do not exist today ready to go. There 
are all sorts of issues that span the gamut in sequestration 
from legal issues to the longevity of the storage and things 
like that. The people I have spoken to over the years, not just 
since coming to this job, but over the last couple of years 
tell me that these are surmountable issues. There is no show 
stopper inherent in any of this.
    Mr. Rehberg. There would be no doubt that the decisions 
that were made over the last 3 years delayed the project or 
projects. Does your budget reflect trying to catch up? Will it 
accomplish what we hope to accomplish, and that is to solve 
this issue as quickly as possible so we can get on with 
building coal-fired generating plants?
    Secretary Chu. If seen in the light of also the Economic 
Recovery and Reinvestment Act, absolutely. I mean, there is a 
considerable amount of money. There is $3.4 billion set aside 
for carbon capture and sequestration.
    Mr. Rehberg. So what would the timeline be then?
    Secretary Chu. Well, we are in discussions, as you pointed 
out, we reopened discussions with the Future Gen Alliance. And 
I am hopeful we can come to some agreement, but we are in the 
process of negotiations. It is open. It is going forward. I am 
optimistic.
    Mr. Rehberg. I look forward to working with you on it if 
you need some help in trying to push that forward with the 
alliance or with the appropriations. We are kind of at a 
stalemate in Montana. It is always interesting when somebody 
says I am all for coal-fired generating plants, however not 
until we have sequestration. What they are really saying is 
they are not for coal-fired generating plants. We are kind of 
at an environmental stalemate.
    I appreciate Mr. Edwards' comments, because I was going to 
talk a little bit about oil, and Mr. Simpson's as well, because 
you can see that we need you to be stronger than some of the 
other Secretaries in other Departments. Our problem is it is 
great to talk in theory about things like biomass, but if we 
can't have access to our forests because people are standing in 
the way at the Department of Interior, it serves no purpose. So 
I guess my charge to you or my plea is, be tougher than them 
and convince them that you cannot move to alternatives until 
they are in place.
    And my fear is much of what happened to Montana's economy, 
we gave up on natural resource development because we were all 
sucked into believing the next generation was fiber and 
telecommunications. We forgot to build the bridge between the 
two economies. And it has taken us a while to overcome.
    And I fear that nobody is paying attention to the global 
perspective of, if we jump right in and only focus on 
alternatives, without a recognition that we are not there yet 
technologically, we as a country are going to be real sorry 
when the lights do go out in Arkansas or in California because 
we have not done what is necessary to build the bridge to the 
next technology by taking advantage of the resources we have 
got in place now.
    So look forward to working with you and thank you.
    Mr. Pastor. John Olver.
    Mr. Olver. Thank you very much, Mr. Vice Chairman.
    I thought there were at least two other people in here 
between.
    Mr. Pastor. I am just following orders. They give me the 
list.
    Mr. Olver. The order people came in or something like that?
    Mr. Pastor. Yes, sir.
    Mr. Olver. Okay. I thank you very much.
    Thank you very much, Mr. Secretary, for being here, for 
taking this job.
    I hope in this process you will have some patience with 
those of us who have to show results and take our exams every 2 
years. In most of what you are doing in your science area, it 
looks like it is pretty long-range stuff. And at some point 
here, I would like to ask a couple questions about how you give 
exams for what it is that is being done, how you do the 
oversight and the evaluation and so forth for that.
    I would like to comment to my friend Mr. Simpson, I was 
wondering exactly where he was going on the Yucca Mountain. And 
it seems to me that one of your orders to your Blue Ribbon 
Commission should be that the site needs to be offshore or off 
planet, else each one of us might begin to worry about where it 
was going to be in our district, and it might of course be in 
the lava flows of Oregon or Idaho or something as opposed to 
Yucca Mountain, coming out somewhere farther down the road.
    You do not need to answer to that at all. I want to explore 
with you your science programs. I had gotten up to ask a 
question about where in the budget were the various hubs. And I 
understand that they are pretty well spread around. A couple of 
them must be in EERE. A couple of them must be in nuclear, 
somewhere in the nuclear energy program. Which ones would be in 
EERE? Can you tell me? I see a list of eight topics. I think 
that is where the hubs are going to be, one in each of those 
topics I take it is the intent.
    Secretary Chu. Right. That is the intent.
    Mr. Olver. Okay. Which ones are going to be in EERE and 
which ones are going to be in nuclear energy?
    Secretary Chu. Well, there are two that relate to nuclear 
energy. One is materials in extreme conditions.
    Mr. Olver. Extreme materials.
    Secretary Chu. Yes. And the other is in the design of new 
processes, new plants, new reactors.
    Mr. Olver. I do not see which one of the phrases that would 
be covered by, the design----
    Secretary Chu. Hold on just a second. They are looking.
    Mr. Olver. Which ones would be in EERE?
    Secretary Chu. In EERE?
    Mr. Olver. In EERE.
    Secretary Chu. EERE, oh, sorry. Let's see, solar 
electricity.
    Mr. Olver. Solar electricity.
    Secretary Chu. New generation of photovoltaics, and also 
building systems design.
    Mr. Olver. Ah, I guessed those correctly. There must be 
some others. But I am very curious what would be, and I am 
still not sure which ones are in nuclear energy. I will find 
them.
    Secretary Chu. No, I have it here, extreme materials and 
modeling and simulation.
    Mr. Olver. Modeling and simulation. That is in nuclear.
    Secretary Chu. Modeling and simulation has to do with using 
those techniques, high performance computing, to design new 
reactors.
    Mr. Olver. Okay. You say these are modeled after the 
bioenergy centers. The bioenergy centers, there is a group of 
seven of them that were authorized in the legislation in 2007 
relating to the previous authorizations in 2005, the genome-to-
life program in 2005. And the bioenergy centers had three major 
purposes. They were for facilitating bioenergy production, for 
environmental remediation, and for CCS, carbon capture and 
sequestration. Now, only three of those were ever started. And 
I do not know, are those three to be continued in the new 
legislation?
    Secretary Chu. Yes.
    Mr. Olver. But their authorization ends. Their 
authorization terminates at the end of 2009. Are you proposing 
legislation to authorize those?
    Secretary Chu. I did not know that the authorization was 
ending in 2009. In that case, yes.
    Mr. Olver. I believe that was the case.
    Secretary Chu. I do not know.
    Mr. Olver. I think that authorization terminates.
    Secretary Chu. Okay. I hope not.
    Mr. Olver. Well, do you intend to do others of the seven? 
Seven were--if you are going to do that, do you think that that 
is worth doing? You are doing three bioenergy production 
centers already.
    Secretary Chu. Well, actually one of them there is going to 
be a Bell Lablet or energy hub on carbon capture and 
sequestration.
    Mr. Olver. Yes, carbon capture finally is being done under 
your hub idea. The hub idea is a bit different.
    Secretary Chu. No, actually, they are not that much 
different.
    Mr. Olver. But you have got them laid out in a much longer 
term. In essence, the three that are there are sort of mini 
hubs of a series of universities doing university research. You 
are thinking in through your hubs of bringing in a whole bunch 
of other entities into the hub, not just universities I take 
it.
    Secretary Chu. No, so let me try and explain. There are 
those three that exist today. The central one is--actually, the 
lead is not UC-Berkeley, but Lawrence Berkeley National 
Laboratory.
    Mr. Olver. Lawrence Livermore.
    Secretary Chu. Lawrence Berkeley.
    Mr. Olver. Lawrence Berkeley.
    Secretary Chu. Livermore is a partner, but a minor partner. 
Sandia is a partner, UC-Berkeley is a partner, Carnegie 
Institute for Plant Biology is a partner. But it is all under 
one roof.
    Mr. Olver. When I first served on this subcommittee, there 
was some question about how we were going to decide what each 
of the national labs was doing. And so there was some question 
about whether we were doing the things that were most 
appropriately to be done or what should be done in the future 
at Sandia and Los Alamos, Lawrence Livermore, Argonne, Stony 
Brook, and Oak Ridge, and so forth. Are the hubs, is it 
possible that those science labs will be a part of one or 
another of these hubs? Or are you intending to create hubs that 
will be--you say in one building. You have talked about it 
being in one building, which is more the mini Bell Labs, but 
that was not a single building by any means.
    Secretary Chu. Okay. So let me--it actually, in Murray 
Hill, it was one single big, big, big building.
    Mr. Olver. Maybe I am looking at----
    Secretary Chu. There were many Bell Labs. But that is not 
important. What is important is that these hubs, the template 
of the hub is actually very, very close to those bioenergy 
institutes. Two of the bioenergy institutes are led by national 
labs, Oak Ridge and Lawrence Berkeley National Lab. The other 
one is led by the University of Wisconsin. And so we are 
throwing this out open to both national labs and universities. 
The ideally under one roof still applies, meaning that ideally 
you get these people together. And so what these three 
institutes have done is they have said, where are the assets in 
the country? The one I know best is the one I helped start, 
which is Lawrence Berkeley National Lab. If we looked regional, 
where are the assets in the country----
    Mr. Olver. Excuse me, Mr. Secretary.
    I do not have enough time for you to explain this in this 
venue. In fact, my Chairman is going to pull the hook on me 
very shortly here.
    But the hubs look as if they are pretty long-range. There 
is a 5-year. You are contemplating the possibility that if they 
do good work, they are going to go on for another 5 years. The 
EFRCs are one university usually; although they could be more. 
In fact, a hub could be made out of three universities that 
were otherwise doing work in that area and might end up 
answering your RFPs when they go out. It is a collaboration of 
some group of people who think they are working in those areas 
and have something big to offer. The RFPs are going to be 
available----
    Secretary Chu. Right.
    Mr. Olver [continuing]. To groups that wish to collaborate 
in an area that they think that they have something to offer.
    Secretary Chu. Right. But the EFRCs and the hubs are very 
different in the sense that the EFRCs are considerably smaller.
    Mr. Olver. They are only one university, aren't they? The 
EFRCs?
    Secretary Chu. No, many of the EFRCs, they are 
collaborating with other groups as well. They take 
collaborations.
    Mr. Olver. All right. Are you likely to do the 
bioremediation kind of a--that was one of those original 
centers. One of the goals in the original centers was there. 
There seems to me to be lots of waste being produced and 
potentially to be produced by either bioenergy or nuclear or 
the use of coal that could take bioenergy or bioremediation as 
part of the cleanup. Do you intend to RFP something like that 
if they become--if they are reauthorized?
    Secretary Chu. Well, bioremediation we would certainly 
fund, but we made a decision not to make that a major hub. 
There are only eight of these hubs. And so, again, in our 
judgment, there are many more things that we think are ripe for 
rapid research that could lead to rapid deployment. And if you 
look at the areas in these hubs, that is the decision we made. 
Bioremediation will still be supported in, for example, Office 
of Science, the ER programs, other things like that. So it is 
not that it is off the table; it is just that, with regard to 
hubs, we made a decision based on what we think was rapid.
    Mr. Olver. Well, let me ask one just last very quick one, 
and I have a whole other line of questioning that I will take 
up privately. But are you funding--does your budget include 
funding for the 2010 for the three that are presently----
    Secretary Chu. Yes.
    Mr. Olver [continuing]. The three bioenergy research 
centers?
    Secretary Chu. Yes.
    Mr. Olver. So they are there.
    Secretary Chu. They are there.
    Mr. Olver. Do you intend to ask for authorization for the 
10 hubs that you are proposing?
    Secretary Chu. Yes. The three biocenters were started on a 
5-year, with the possibility of renewal for 5 years. The new 
hubs are along the same.
    Mr. Olver. And the funding pattern is essentially the same 
for the----
    Secretary Chu. Correct.
    Mr. Olver. That is the basic similarity of the model.
    Secretary Chu. Correct.
    Mr. Olver. Okay. So you do expect to ask for authorization 
legislation. It is not in the big energy bill that is moving 
around at the moment, is it?
    Secretary Chu. No, but it----
    Mr. Olver. It is a huge expenditure and a huge commitment 
not to be authorized in some kind of a way.
    Secretary Chu. Okay.
    Mr. Olver. It is hanging out there.
    Secretary Chu. Okay. Got it.
    Mr. Pastor. We have about 30 minutes left, and Ryan just 
left, so we have I think three members who have not asked 
questions. We are going to allow them to ask the questions, and 
then whatever remainder either myself or other people will 
finish it off, and then we will have a few minutes for closing 
remarks.
    So Rodney, you are next.
    Mr. Alexander. Thank you, Mr. Chairman.
    Mr. Secretary, good morning. It is still morning. In your 
budget request, the R&D for solar power energy has almost 
doubled. In fact, it grew a lot more than the others. What 
justifies that? Do you have that much confidence in that form 
of energy?
    Secretary Chu. What justifies it is actually, again, 
looking forward, first, there is a tremendous potential. Right 
now, if you look in the short term, this year, next year, if 
you look at the price-cost competitiveness of photovoltaics as 
an example relative to other renewables, relative to fossil, it 
is not there. It requires great subsidies in order to get 
installments. But the potential for it is huge; 5 percent of 
the world's deserts can supply all the electricity if we could 
transport it, if we could store it. And that is not that much 
of the world's deserts if it is, let's say, 20 percent.
    So what I see is I see some rapid developments in 
nanotechnologies that could create a new generation of 
photovoltaics that can go beyond silicon, either 
polycrystalline or single crystal silicon. There are already 
some thin-film technologies, like the one Cylindra is 
developing, that show promise. But in the research labs, there 
are many other things that are being looked at that can even 
have greater promise. So it is this huge thing out there. It is 
like why we fund fusion, which that is not going to be viable, 
commercially viable let's say for the next 50 years, it is a 
huge potential. Photovoltaics one hopes could be there sooner.
    Mr. Alexander. In your research for biofuels from biomass, 
there is no mention of algae. And we know that we have wetlands 
all across the United States and some marginal lands that serve 
very little purpose except to hold the world together. Do you 
not believe that there is a potential there for----
    Secretary Chu. No, there is potential for algae. And we 
will be funding, are funding algae projects. So that is part of 
our biofuels portfolio.
    Mr. Alexander. Okay. The companies out there today that 
exist that are using some natural products to fuel their energy 
needs and maybe are creating some materials internally that 
might have been waste at one time, and they are now using that 
to fuel their generators, and they enjoy a tax credit, do you 
think those tax credits might be in jeopardy, which would lead 
to an increase in cost for these companies?
    Secretary Chu. Well, actually--well, the honest answer is, 
I do not know, but I am a big fan of using waste, and using 
that waste and using it to create energy. I think it makes a 
much more efficient economy.
    Mr. Alexander. Well, there are some companies enjoying 
those tax credits now that are afraid that, for instance, if 
there are natural products that they are using to fire their 
boilers, and the government creates a program over here that 
would encourage another individual to take those raw products 
and convert them to an energy and then sell them back to the 
plant for fuel sources when the plant has been using those raw 
materials as a supply of fuel, and if we take that credit away 
from them, then that indeed is going to lead to a tax increase 
for them.
    Secretary Chu. Well, I do not know the details, but from 
just listening to you, if there are--for example, I am 
surmising this is some sort of biowaste that they would put 
into the boiler and burn it. And you know, burning biomass and 
using it as a supplement for generating power is something that 
works. It is very effective. And so on the face of it, I would 
have to look more into it, but it seems to me that that is 
certainly a suitable way of using waste products.
    Mr. Alexander. Thank you.
    Mr. Pastor. Lincoln.
    Mr. Davis. Mr. Chairman, thank you.
    Mr. Secretary, I appreciate you being here, and I know 
that, as I look at your background, it is great to have a 
scientist that is our Secretary of Energy. I live in a rural 
area. And I sometimes speak just regular rural language when I 
talk. And I am not ashamed of that, as our gentleman from 
Arkansas is. And we have a terminology that we use that you 
never eat the seed corn; you always keep it for the next year 
and the next season, the next season. I think over the last 
several years we should have been applying that to our research 
and development when we talk about energy in this country, 
because back in the late 1970s, when Carter talked about an 
energy policy that would make us energy-independent or close to 
energy-independent and self-sustainable, we kind of forgot 
that. And so we started consuming the seed corn, so to say, in 
some other area. We stopped the research and development that I 
think we should have been doing the last 30 years. My hope is 
that we do not miss this opportunity.
    So, in doing that, in saying this and kind of setting the 
mold of what I want to ask, I look at all of the proposed 
sources of energy that we will have in the future, nuclear, 
solar, windmills, biomass, coal, natural gas, hydro, all the 
different areas that we are talking about, and I find here that 
we are just talking about climate change instead of energy, 
becoming energy-independent. And in essence, I think that we 
should look at an energy policy based upon it being economic 
security and national security. And I think that has to be a 
part of any energy policy that we establish.
    Certainly climate change, we need to realize that that is 
occurring, and that if we do not do something, we will not have 
to worry about national security or economic security because 
we will not exist any more. So I do believe that climate change 
is occurring. A couple questions I have always, if you mention 
nuclear energy, someone says, well, it is going to take a long 
time to do that. We produce, what, about, for an average 
reactor, about 1,500, today, megawatts?
    Secretary Chu. Yeah, a gigawatt.
    Mr. Davis. Roughly that?
    Secretary Chu. Yeah.
    Mr. Davis. Okay. How large of an area and how quick could 
we produce a solar farm that would produce that type of energy? 
How long would it take us to do that? And do we have the 
research available today to actually make that possible?
    Secretary Chu. No, I would say that the solar farms that we 
are anticipating today where they are thermophotovoltaic are 1 
quarter that size.
    Mr. Davis. What?
    Secretary Chu. 1 quarter. They are in the scale, of the 
ones that I have seen, are in a scale of a hundred, 200 
megawatts instead of a thousand.
    Mr. Davis. And how long would it take us to actually--do we 
have the technology today to actually put those in place? And 
how long will it take us to actually build that farm or that 
facility that would produce those hundred megawatts?
    Secretary Chu. Well, there are a couple of projects that I 
know of, particularly solar thermal, that the time scale would 
be a couple of years. I am actually more concerned about the 
long licensing periods of the nuclear reactors than the solar 
thermal farms.
    Mr. Davis. You see, I am concerned about whether or not we 
are going to be able to produce 20 percent or more or 15 
percent or more of noncarbon-based produced electricity in this 
country. And for me, looking at doubling or tripling the number 
of nuclear facilities that we have, maybe we need to start the 
process, expedite the process. Your Department needs to 
actually expedite working with the Nuclear Regulatory 
Commission to see that we are able to expedite the licensing of 
nuclear facilities. I am not saying that that is the only 
answer. But it seems today the only thing we hear is biomass, 
windmills and solar panels are the only way that we are ever 
going to reach the level of producing the energy we need 
without carbon emissions. I am just asking you, is that 
plausible to assume that we can do that?
    Secretary Chu. Well, I am agreeing with you. We are 20 
percent nuclear today. If you look at the wind and solar 
thermophotovoltaic, it is less than 3 percent. We have hydro at 
6 percent. It is going to take a while to grow that 2.8 
percent. And these sources are variable. And so although there 
is, you know, I am a big believer in renewable energy, you also 
have to recognize where we are today, and it is going to take a 
while to make this transition. So----
    Mr. Davis. As I look at the enriched uranium that we have 
in different labs, located certainly in Oak Ridge, I understand 
we have maybe hundreds of years possibly of--and maybe you 
cannot answer that question, maybe I should not have made the 
statement I made as far as security wise, but don't we have 
available energy today where we can convert it into nuclear 
energy for a long, long time for this country?
    Secretary Chu. It depends on what we are going to do with 
the fuel cycle largely. The way we do it now, we are only using 
less than 10 percent of the energy content of the fuel. And so 
that is why we are putting money into research for closing the 
fuel cycle.
    Mr. Davis. We are having some success at our labs, as well, 
especially in Oak Ridge, on finding ways, perhaps, where we can 
maybe reuse 85, 90 percent of the rods. Is that correct? Am I 
hearing that from some scientists, or is that just a hope and a 
dream?
    Secretary Chu. Well, it is----
    Mr. Davis. As we recycle.
    Secretary Chu. 80 percent are numbers that I have been 
hearing. It is not only Oak Ridge; it is Argonne, and 
especially it is Idaho that are looking into these issues.
    Mr. Davis. We have a lot of money today in the omnibus bill 
that was passed. And of course, some folks refer to it as the 
stimulus package. I refer to it as the American Economic 
Recovery and Reinvestment Act, because that is what we hoped 
will happen.
    A lot of dollars there. Many of the labs today, about 17 of 
those, some of their contracts are coming up for renewal or for 
competition again. What I am finding is that, with all these 
dollars that we have that we are going to be spending, and then 
a competitive bidding process, in many cases, only one, which 
is basically the incumbent lab, are the contractors who will 
only bid on those bids. Would you consider looking at maybe 
extending those contracts for a year, 2 years, 5 years as we go 
through this process today of research and development that we 
are doing to try to refine the potential energy sources we have 
for our country?
    Secretary Chu. Well, there are two parts to that. I 
certainly do not know what the statute of limitations are 
regarding the rebidding. I went through a process when I was 
director of Lawrence Berkeley Lab; we were the first lab that 
had to rebid. I started this one or 2 months in the beginning 
of my tenure. A lot of money was spent. A lot of time and 
energy was spent, and there was one bidder. So I share your 
sympathy. So I would look into it. But, again, I do not know 
what the statutes are. But I would certainly be willing to work 
with you.
    Mr. Davis. Obviously, the law might have to be----
    Mr. Pastor. Lincoln, I am going to have to, we are running 
out of time.
    Mr. Davis. Thank you.
    Mr. Pastor. I want to give Mr. Salazar a chance, and Ryan 
and Fattah.
    Mr. Salazar. Well, I want to thank you, Mr. Vice Chairman.
    Mr. Pastor. I did not want to forget you, John.
    Mr. Salazar. Well, I did get here early, but I know that 
you made a good selection in letting me ask a question that has 
already been asked.
    Mr. Secretary, I want to follow up a little bit on what Mr. 
Rehberg said on clean coal-burning technology. How committed is 
this administration in moving carbon sequestration and issues 
like that forward? We have massive resources in coal in my 
district, and I think in probably every member's who is here. 
And are we really--you do not hear that coming from the 
administration.
    Secretary Chu. Really? Hear it from me. Yes. I say that the 
world is not going to turn its back on coal. If we do not fix 
this problem, okay, no matter--so we are very committed. Every 
time I talk to my counterparts in foreign countries, I say, 
let's get serious, and also let's work very closely together, 
because this is a huge undertaking, and it has huge costs to 
pilot these things. And so, and this is something where, let's 
forget about competitive advantage, because most of the 
investments of a power plant will be made in that country. So 
let's develop together these methods. But we are very committed 
to doing this.
    Mr. Salazar. But if we lead the world in technology 
development, we can actually help sell that technology, I mean, 
and recover some of our costs, I believe.
    Let me just move forward. I will be brief. On the cyber 
security and the electricity power grid, could you give me your 
comments or your thoughts?
    Secretary Chu. Yes, very important issue, because this is 
the power of the country. And as we go into a new distribution 
system that we will definitely need going forward in the 
future, because we are going to be anticipating there will be 
more renewables which have variable sources of power, which 
means you will have to be switching around power.
    It has to be done in an automatic basis. You cannot use the 
old technology, which is, call up the next power station and 
say, send me some power. Because when a cloud rolls by, the 
wind stops blowing; it has got to be done automatically.
    We are going to have to manage two-way flows, that more and 
more buildings will be generating their own energy that will be 
put back onto the grid. I do think in 5 or 10 years, we will 
have substantial introduction of plug-in hybrid vehicles, again 
two-way flows.
    And so you need all these things, which means you need an 
automatic system. Also, by the way, it will help us deploy and 
use our energy resources better because you can reach in and 
you can, in those 1 or 2 percent of the days, you can actually 
throttle back the use so that you can, because there are a lot 
of energy assets that are sitting there only for that 1 or 2 
percent of the days, and the rest of the time they are sitting 
idle. And when they are sitting idle, it means that you are 
getting no return on your investment. So the grid will allow 
all these things to happen much better.
    Then having said that, you know, there are hackers all over 
the place that would just love to have incredible mischief in 
bringing down something. Except now this is different. This is 
our electricity. This is not your PC. And so it is a very, very 
big deal that we develop methods. The Secretary of Commerce and 
I, first we are pushing very hard on developing communications 
standards, which of course deeply embedded in them are the 
security issues as we go forward in the smart grid. How are the 
companies going to develop standards that they can do and 
security protocol standards?
    So we have been pushing this. It was authorized 2 years 
ago. What we found since we took over, it has gone very little, 
essentially nowhere. I found this out personally because we 
organized a series of meetings. I sat in the second one where 
there were scenarios, and the people in these companies who 
were presented scenarios, okay, what do you have to think about 
in order to develop these standards? There will be more than a 
hundred new standards that would have to be developed. And 
listening to them talk about the scenarios, this is the first 
time they have thought about it after 2 years. So we are 
pushing it as hard as we can to get these things. It is of 
great concern.
    Now, the good news is that because of--between the 
Department of Defense, NSA, and Department of Energy, there is 
a lot of expertise out there on security, cyber security. 
Because we have had to protect nuclear secrets for so long, 
there is a lot of expertise. And so that expertise will have to 
be tapped in. But this is pretty serious.
    Mr. Salazar. Thank you, Secretary.
    Thank you, Mr. Vice Chair.
    Mr. Pastor. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    I want to go back to--Mr. Secretary, thank you. I was glad 
to see your appointment, and I am glad you are here helping us. 
I have a couple of questions.
    One, I want to go back to the hubs. You were starting to 
say that there was going to be a regional flavor, and the hubs 
were going to hopefully tap into regional assets. Can you just 
talk a little bit more about that?
    Secretary Chu. The regional assets in the sense that I do 
not mean we are going to make a hub in this part of the 
country, that part of the country. Overall, the major selection 
and criteria will be how good a scientific team can be put 
together. And high on that list is, how good are the managers 
of that team going to be?
    But regional in the sense that, ideally, under one roof. It 
has been my experience in my career that if you are under one 
roof and you eat lunch every day and all the people in that 
building are marching towards a goal, whether it be figuring 
out, inventing new building systems technology that industry 
can use to make our buildings 80 percent more energy efficient 
and economically pay for themselves in 10 years, if you have 
everybody in that building working towards that goal and they 
are eating lunch together every day, and it is well managed, 
the probability of remarkable progress will be higher than if 
it is just a onesie, twosie, here, there, separated. So that, 
in my experience and what I saw at Bell Laboratories when they 
got serious about something, like the invention of the 
transistor, you can go much faster.
    Mr. Ryan. And you, in your remarks, in your written 
remarks, you talked about commercialization. And how do you, as 
you organize the hubs, what is the approach to 
commercialization? What is the role, I think the Vice Chair 
asked early on, about private sector engagement? So can you 
talk a little bit about commercialization?
    Secretary Chu. Sure. We are expecting these hubs to have 
partners and strong connections with industry. The two that I 
know best on the biology hubs have embedded in their structure 
and in the start connections with companies. For example, the 
biofuels hub led by Berkeley Lab, they made a decision to just 
bypass ethanol. They have made, in their first 6 months, they 
have been able to reprogram yeast and bacteria to make diesel 
and gasoline and jet-like fuel from sugar. And because of the 
technology that they have developed, they are now talking with 
automobile manufacturers and saying, precisely, what type of 
fuel would be ideal for the engines and going forward?
    So that is just one example of how we want these hubs to be 
talking to their customers as an integral part of what their 
research is. This is not academic stuff firing out there 
putting stuff between journals. It is really delivering some 
goods.
    Mr. Ryan. That is the concern, obviously, and that is why 
you are changing it. So, for example, you are doing the 
batteries, the battery hub. Would General Motors be a partner? 
Just throwing General Motors out there. But would a General 
Motors or a car manufacturer put money into the lab as well, 
put resources into the lab as well, or is it more the people 
working at the hub, calling them, saying, hey, what do you 
need?
    Secretary Chu. You know, that is a very good question. I 
think in the energy-efficient buildings systems, there are 
companies out there that are building-control companies. When I 
was a director of Lawrence Berkeley Lab, last year-and-a-half I 
was a director, we were talking with the likes of, for example, 
United Technologies that makes building-control systems and 
makes air conditioners, Carrier air conditioners and all these 
things.
    So what one would want ideally is, and they were willing to 
put in money, $3 million to $5 million a year, okay, and so, 
ideally, and you get real collaboration if you get companies 
willing to pony up and say, okay, in addition to the money the 
Department of Energy is funding, to make it serious, let's put 
some significant skin in the game. At the very least, it would 
be lovely if they would say, let's send their scientists over 
there and put them under that same roof.
    Mr. Ryan. This is a part of----
    Mr. Pastor. Can we ask Mr. Fattah here for his questions?
    Mr. Ryan. No. No, I am kidding.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Ryan. We will pick this up later, Mr. Secretary.
    Mr. Pastor. You are going to have so many luncheon dates 
with all these members that you are going to have to clear your 
calendar for a few weeks.
    Secretary Chu. As long as they do not mind, I do not have 
to eat, because I would be glad to watch them eat while I talk. 
I am trying to lose weight.
    Mr. Fattah. Let me first acknowledge our chairman and his 
extraordinary work, even in his absence. And I hope that at 
some point soon, he is returned to the committee.
    But I want to thank the Vice Chairman for recognizing me.
    Mr. Secretary, it is good to see you again.
    The President has indicated his seriousness about this 
question of energy and energy independence for the country by 
his appointment of you. I think that has been well recognized 
by everyone who has commented. We are very happy that you are 
leading the Department. I am sure you are going to love science 
even more the closer you get to politics and this political 
environment.
    But I have three issues that I wanted to raise. And to the 
degree that you cannot get to them today, you can supply them 
for the record. But I am very interested on one level about the 
energy efficiency block grant, and I am very pleased at what we 
have seen thus far in local communities across the country as 
the Department has moved very aggressively to get those dollars 
out the door. We want to continue to work with the Department 
on some of the efforts to make this program as successful as we 
want it to be in terms of having local governments at the city, 
at the county levels be able to work to have a more energy-
efficient environment in their locales.
    Secondly, I am interested in the loan guarantee program, 
both on the renewable side and on the nuclear side. I joined my 
colleagues who have spoken in favor of nuclear in the sense 
that I think it is the quickest way and the cleanest way to 
proceed. I come from a State that has a number of nuclear 
facilities, and I think we need to be very aggressive.
    I also think that, in many instances, the licensing process 
itself is more challenging than the financing. That it is not 
is so much just--you know, you might be able to do nuclear 
without a loan guarantee, but you cannot do it if you have such 
an uncertain environment in which the licensing process 
proceeds along. So I appreciate your earlier comment that you 
are interested in the challenges that lie there.
    But I am also interested on the renewable side. And there 
were a number of entrepreneurs who are very concerned about 
the, and I have spoken to you about this before, about the 
passivity, if you would, of the Department over these number of 
years to get any of those dollars on the street.
    And I am interested in how we can make that work even more 
efficiently and whether there could be even marriages with 
States like my own that have been aggressive in terms of 
creating their own programs and loan pools for small 
entrepreneurs in this regard.
    The last thing, and the one priority that I would like to 
follow up with you, I see your senior staff around, and I do 
not have to have lunch with you, I just need to see whoever is 
actually in charge of this RE-ENERGYSE effort, this education 
effort, the $115 million. I am very interested in how that is 
going to be worked through, because I think that that is where 
the rubber really does meet the road, that we need to be 
training more people like yourself if the country actually is 
going to meet its scientific challenges going forward. And we 
have a dearth of Americans of any stripe proceeding and 
focusing on terminal education and any of the hard sciences. So 
I am very interested in that effort.
    So those are my three issues, RE-ENERGYSE, which I would 
actually like to do some follow-up, the loan guarantee on both 
sides, the bifurcated both on the renewable and on nuclear, and 
the energy block grants. So I would rest my case there.
    Thank you, Mr. Vice Chair.
    Mr. Pastor. Before I let our ranking member close with his 
statement----
    Mr. Fattah. You want to let the Secretary respond to my 
questions?
    Mr. Pastor. I thought you were going to meet with his staff 
and----
    Mr. Fattah. I would like to get an initial comment.
    Secretary Chu. Very, very quickly. With regard to loans, I 
would stick to substance things; there is this 20 percent 
requirement that these companies come up with an additional 20 
percent. Given today's tight credit markets, we would be 
willing to work with the States. Some States are already trying 
to finance the other 20 percent. And to the extent that it is 
permissible in the statute, we would be willing to work with 
the States.
    And on RE-ENERGYSE, very, very important. You know, I was a 
member of that committee led by Norm Augustine that led to that 
report, ``Rising Above the Gathering Storm.'' The path forward 
in how the United States is going to prosper in the 21st 
century, the answer was very simple, invest in the intellectual 
capital from K through 12 all the way up. You know, put in tax 
credits that allow companies to invest in research so that they 
can properly use that intellectual capital that we trained all 
the way up and down the ladder. That is the simple answer.
    So I am now glad that I am in a position to try to carry 
out some of that stuff. ARPA-E was part of that in that as 
well. And I went before I think two Congressional committees 
saying what a good thing ARPA-E was because it will help us get 
some of this intellectual capital out into the market and 
deployed.
    So, again, it is ironic that, I do not know, that was in 
2005, and in 2009, here I am having to deliver some of the 
goods. It is much easier to just talk about it. And, you know, 
the energy investments, yeah, it is a big deal to us. So I will 
be glad to meet with you.
    Mr. Fattah. Thank you, Mr. Secretary.
    Mr. Pastor. Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Vice Chairman.
    I want to thank you, along with Mr. Pastor, for your 
testimony this morning.
    I am sorry that the hearing was limited to 2 hours, because 
I know there is a lot of excitement that you have gotten a 
great deal of money into the Recovery Act, and I am sure we 
will be watching to see how you spend that. But it is 
unfortunate we really did not have an opportunity to 
concentrate on your responsibility and our responsibility of 
issues that relate to the nuclear protection and reliability of 
our nuclear stockpile.
    I know there is a lot of excitement on the renewable energy 
side of things, but to me, through this committee and through 
my work on the Defense Subcommittee on Appropriations, I am 
concerned, just I say for the record, whether you have the 
money and we are making substantial enough investments in those 
who are key movers and understanders of the reliability of the 
stockpile and our ability to deliver to our military customers, 
you know, on a reliable basis.
    I do not need to have you respond to it, but I think it is 
unfortunate, since that is historically really the main 
responsibility of the Secretary of Energy, that we really have 
not had a chance to sort of discuss that and get the level of 
reassurance that I think we deserve.
    Thank you, Mr. Chairman.
    Mr. Pastor. Thank you.
    Going back to Fattah's question that dealt with regaining 
our energy science and engineering, it is interesting, because 
I read on page 5 of your testimony, you describe it, and it 
goes from K to 20-plus, and you talk about grants, masters 
degrees, higher, et cetera. But you end with, and I think even 
when you deal with the community colleges, you are talking at 
the higher levels, but since you start from K to--let's say K 
to eighth, it says, and increase public awareness, particularly 
among young people, about the role that science and technology 
can play in responsible environmental stewardship.
    I would tell you that the problem is bigger than that. And 
my concern is that many of these young students still do not 
have the knowledge, working knowledge, comprehension in science 
and math. And so the awareness can be developed I think if they 
have teachers that can teach science, if they have teachers 
that can teach math effectively.
    And I would suggest to you that probably the National 
Science Foundation may not be the only Federal agency to work 
with, but I know that, in the Department of Education, they 
have a STEM program that is trying to encourage young men and 
women to look at math and science. And so I would encourage you 
to plug in wherever you can so that the young people can get 
that basic education of math and science. And with that, they 
will become more aware of that relationship to our environment. 
So I would strongly encourage you to get to the root problem 
that our kids are not getting enough math and science in their 
education.
    And with that, you can close the hearing, Mr. Secretary. If 
you have a response, I would be happy to take it. If not, thank 
you for being here.
    Secretary Chu. Sure. Very briefly, I agree with you. We are 
partnering with the NSF, and we should also, not actively yet, 
be partnering with HUD--not HUD, but Department of Education on 
K through 12, both the teaching of science and math teachers. 
We have a couple of programs that are being led in the 
Department of Energy and National Laboratories that actually 
train teachers, science teachers, high school, junior high 
school, even elementary school teachers during the summertime.
    Those programs actually showed remarkable improvement, 
particularly in the math scores. You help the teachers, and the 
students show these improvements over a couple of years. So 
that is a very big deal. And so we are going to be doing things 
of that nature. This is our feed stock of tomorrow, and so it 
does begin in K through 12. So we will need tens of millions of 
dollars. And as we figure out better ways of putting the money, 
we would look towards increasing it.
    Mr. Pastor. I thank you for this morning.
    And Mr. Secretary.
    Secretary Chu. One last comment for Ranking Member 
Frelinghuysen. When the NNSA was first formed, there was an 
advisory committee. I was on that advisory committee. So 
actually the role in nuclear security goes way back in my 
history. And I do think, although we did not talk about this 
that much, it is a very important part of what I have to do and 
what I do do. And let me just say there is----
    Mr. Frelinghuysen. I am respectful of that. But as we have 
sharply reduced our nuclear stockpile, which a lot of people do 
not give us credit for, but as we continue to even cut it even 
more, it is important that we keep that institutional memory 
and expertise and technological advantage that is so essential.
    Secretary Chu. I agree with you.
    Mr. Frelinghuysen. Thank you.
    Mr. Pastor. Thank you. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





</pre></body></html>
